U.S. Department of Labor      Inspector General
                              Washington, DC 20210
FEB. 20, 1997

MEMORANDUM FOR:     J. DAVITT McATEER
                    Assistant Secretary for Mine Safety and
                         Health

FROM                CHARLES C. MASTEN
                    Inspector General

SUBJECT:            Review of the Mine Safety and Health
                    Administration’s Pittsburgh Safety and
                         Health
                    Technology center
                    Report No. 09—OEI-97-MSHA

This memorandum report presents the results of a review of
selected operations of the Mine Safety and Health Administration
(MSHA)’s Pittsburgh Safety and Health Technology Center
conducted by the Office of Inspector General, Office of
Evaluations and Inspections. Our review, initiated in response
to a Congressional inquiry, did not confirm the concerns cited
with respect to the Technology Center, specifically: (1) that
the soil testing laboratory is inefficient or unnecessary; (2)
that the Roof Control Division duplicates the responsibilities
of the Mine Waste and Geotechnical Engineering Division; or (3)
that the Roof Control Division provides mine design support to
small operators. Rather, we concluded that these complaints are
based upon inaccurate or incomplete information, and, therefore
lack merit. Since no other issues regarding the Technology
Center’s operations came to our attention during the course of
our review, this memorandum is provided for informational
purposes and does not require a response.

I.     Background

The Assistant Secretary for Mine Safety and Health requested
that the Office of Inspector General review the concerns raised
in correspondence, dated August 2, 1996, from Congressman Daniel
Schaefer. This report presents the results of the second in a
series of reviews planned to address the issues forwarded by the
Congressman. Our review was conducted in accordance with the
quality Standards for Inspections published by the President’s
Council on Integrity and Efficiency and included analysis of the
Center facilities, technical support logs, files, internal
evaluations, and interviews with selected MSHA personnel. The
issues and allegations pertaining to the soil testing laboratory
have been previously reviewed by MSHA, and the agency provided
the results of these internal reviews to OIG.

MSHA’s soil and testing laboratory provides an independent
capability for testing and verifying soil properties (including
density) associated with refuse and impoundments. The laboratory
was established following the Buffalo Creek mining dam disaster.
Due to budgetary constraints, the laboratory was equipped on an
incremental basis whereby MSHA purchased new equipment over a 19
year period or obtained surplus equipment.

The Roof Control Division handles safety related issues
regarding roof and ground control/support for underground mines
and mining equipment. Roof Control Division engineers spend a
significant amount of time conducting field investigations at
underground mines where a roof collapse or related accident has
occurred or a serious potential safety problem has been
identified. The Roof control Division also conducts laboratory
testing for MSHA field offices regarding the structural
suitability of roof support materials and reviews proposals and
prototypes from manufacturers regarding roof support equipment.
When requested, the Roof Control Division’s employees will
assist MSHA District Managers with technical questions involving
roof control safety plans submitted to the District Managers by
mine operators. Other technical support includes topographic
remote sensing, using digital satellite imaging, to assist
operators in identifying structural mine deficiencies and
training mine safety personnel, including MSHA roof control
inspectors. Roof Control Division engineers hold degrees in
mining, civil or mechanical engineering or geology.

The Mine Waste and Geotechnical Engineering (MWGE) Division
employs civil engineers who deal with above-ground safety issues
associated with surface highwall stability, ground stability and
waste removal, particularly impoundments and hydrology issues.
The MWGE Division’s engineers perform technical reviews of
engineering plans for refuse and waste impoundments routinely
submitted to them by MSHA District Managers. Operators are
required to submit plans for all new mine impoundments, as well
as requests for expansion of existing impoundments. An integral
part of any refuse pile or impoundment plan is the determination
of the structural properties of the construction materials which
requires sampling, field testing and laboratory testing.
II.   Review Results

      1.   Soil Testing Laboratory

      Our objectives in evaluating the soil testing program were
      to determine the usage of the laboratory and related costs
      for the past five years and the potential availability of
      more cost effective alternatives for conducting the tests
      in the future. The soil laboratory, which supports
      significant MSHA enforcement goals, conducts a more
      extensive testing program than indicated in the
      Congressional inquiry which served as a basis for our
      review. In addition, the cost of the space, the staffing
      level and the estimated value of the laboratory equipment
      are immaterial and were substantially overstated in the
      correspondence forwarded to us, while the expense of
      contracting the soil tests to commercial laboratories would
      be higher than cited. We, therefore, concluded that the
      soil testing laboratory is a cost effective operation
      critical to MSHA’s mission and we did not identify
      opportunities for future efficiencies in this program.

      The importance of the soil testing laboratory to MSHA's
      mission is supported by both the agency’s internal reviews
      and our evaluation. By using its own soil testing
      laboratory, MSHA avoids the potential conflicts of interest
      which could arise from contracting with a commercial
      laboratory that may also conduct soil tests for mine
      operators under MSHA review. Immediate access to laboratory
      equipment permits MSHA personnel to test soil materials
      without delay and address structural safety deficiencies
      promptly. The laboratory may also serve a deterrent purpose
      since mine operators are aware that MSHA enforcement
      personnel can readily and independently measure indicators
      of the structural integrity of their refuse piles and
      impoundments.

      Our review of MSHA records did not confirm the
      Congressional constituent’s contention that only one or two
      sample tests have been conducted per year, over the last
      five years. Analysis of the documentation from the MWGE
      Division’s files regarding technical assistance requests
      for soil testing activity disclosed that formal technical
      assistance responses were prepared and the results reported
      to MSHA inspectors or other agency officials 13 times over
      the last five years. It should be noted, however, that this
      figure does not represent the total number of tests
conducted on the multiple samples taken from each site. For
a typical technical assistance effort, there could be as
many as 35 samples used in 6 different tests, equating to
approximately 455 sample tests over the same five year
period, or approximately 91 sample tests per year. Tests of
soil samples collected in conjunction with the independent
field research of MWGE Division engineers are also
conducted in the laboratory to compare, confirm or evaluate
data, from the engineers’ field observations and these
tests are not included in the above totals of technical
assistance requests. In addition, the laboratory is used to
construct scale models for instructional demonstrations by
MWGE Division staff during accident prevention forums and
other safety training activities sponsored by MSHA.

Analysis of records and interviews with MSHA officials
regarding laboratory equipment and rental of space did not
support the complainant’s position that the soil testing
laboratory is valued at $500,000 to $600,000. Our review
indicates that MSHA expenditures for the equipment totaled
$130,751, with an additional $20,575 in equipment obtained
by MSHA free of charge via government surplus. It should be
noted that the current value of the equipment would be
significantly lower if depreciation were applied since most
of the equipment is between 10 and 20 years old. The annual
rental expense for the soil laboratory space, including
utilities, maintenance and janitorial services, equals
approximately $17,500, half the total charge for both the
rock and soil testing laboratories.

While the correspondence forwarded by the Congressman
states that comparable private soil testing laboratories
would charge about $1,000 per test, our review determined
that the cost for the series of tests conducted on samples
for a typical technical assistance effort totals as much as
$3,680. Our calculation was based on estimates of the
commercial cost for laboratory testing work on mine waste
and soil samples developed by MWGE Division staff in May
1995. The costs reflected the average costs from two
geotechnical testing laboratories in the Pittsburgh area.
While the nature of required testing varies depending on
the type of problem being investigated or evaluated, a
technical assistance effort for a site typically consists
of multiple laboratory tests. It should also be noted that
the MSHA laboratory has some larger equipment not typically
found in local commercial laboratories, such as the
instrument used for a Triaxial Compression test. Triaxial
tests on the larger samples found in coarse refuse would be
considered special tests for a local commercial laboratory
and would, therefore, significantly increase the costs for
that test series.

While the complainant’s correspondence referenced multiple
technicians employed by the soil testing laboratory, our
review determined that, with the decreasing staffing levels
at the Technology Center, no technicians are currently
assigned on a full-time basis to exclusively conduct soil
sample testing. The technician who had been responsible for
all soil laboratory and field work as well as maintaining
the equipment retired on March 31, 1995. Since his
retirement, junior engineers generally perform the soil
testing with assistance, as needed, from the rock
laboratory technician. The rock laboratory technician is
also called upon to service the laboratory equipment when
necessary, rather than utilizing the services of an outside
company.

In order to determine the potential f or increasing the
usage of the soil testing laboratory and generating revenue
from this MSHA asset, we contacted officials of other
Federal agencies with soil testing needs in the Pittsburgh
area. However, none of the agencies expressed an interest
in conducting tests at the Technology Center since their
staffs lack the training to operate MSHA’s equipment and/or
their requirements for soil tests are rare.

2.   Functional Overlap Between the Roof Control Division
     and the MWGE Division

We thoroughly examined the workload and responsibilities of
the Roof Control and MWGE Divisions to determine whether
functional overlap or duplication of activities exists, as
noted in the Congressional correspondence. We concluded
that the Roof Control Division and the MWGE Division are
distinct organizations whose responsibilities and workloads
are clearly delineated.

The geologist and mining, civil and mechanical engineers of
the Roof Control Division primarily address safety related
issues regarding roof and ground support for underground
mines, including ground support, ground control, pillar
design, remote sensing, and prototype testing. The MWGE
Division employs civil engineers who are responsible for
above-ground safety related issues associated with surface
highwall stability, ground stability, and waste removal,
particularly impoundments and hydrology issues. Similar to
employees of other divisions at the Pittsburgh Safety and
Health Technology Center, staff of the Roof Control and the
MWGE Divisions work together when appropriate, sharing
resources and expertise. For example, if underground mining
operations occur below a body of water, the Roof Control
Division engineers will consult with the MWGE Division’s
hydrology experts. The MWGE Division, in turn, may utilize
the services of the Roof Control Division’s geologist on
above ground structural issues, such as those associated
with highwall stability. However, review of logs maintained
by the Roof Control Division and interviews with engineers
from both divisions indicate that such cooperation does not
blur the fundamental distinctions or unique
responsibilities of the two units.

3.   Small Mine Design Technical Support

Our objectives in evaluating the allegation that improper,
and possibly illegal, mine design support is being provided
to small mines by the Roof Control Division were to
determine whether the division offers free technical
support to operators for mine designs, and if so, the
nature and extent of such technical support. In addition,
MSHA’s responsibilities to provide technical support to
operators were examined, as well as any specific statutory
or regulatory prohibitions regarding technical assistance.
We concluded that the Roof Control Division has not
provided technical support to any operator in a manner
inconsistent with applicable law, regulation, or MSHA
policy.

Both the Federal Mine Safety and Health Act of 1977 and
MSHA regulations require that all operators be provided
with safety-related technical support whenever possible,
free of charge. Consequently, operators may formally apply
for technical support in such areas as roof control,
prototype testing, etc. No formal prohibitions or
restrictions regarding the provision of safety related
technical support to operators were identified.

Operators of underground mines, regardless of size, are
required to submit roof control safety plans to MSHA
District offices for approval before they start mining
operations and every six months thereafter. An MSHA
District office may request the Roof Control Division to
review an operator’s roof control plan before approval.
During the course of a field investigation, the Roof
Control Division may also review an operator’s roof control
safety plan and suggest improvements or modifications to
that plan. Field investigations may be conducted on a mine
of any size and are normally requested by MSHA District
offices, with a small number requested by MSHA
headquarters, union officials, or mine operators
themselves. In addition, the Roof Control Division will
provide, upon request, satellite remote sensing data to any
operator for use in designing a roof control safety plan.
However, in all of the above referenced situations where
the Roof Control Division is involved with an operator’s
safety plan, the design of the original safety plan is the
responsibility of the operator. We. found no evidence to
indicate that technical support is provided to any
operators to assist in their general, nonsafety related,
mining activities.

In summary, our review determined that the concerns raised
in the correspondence forwarded by Congressman Schaefer
regarding selected operations of the Pittsburgh Safety and
Health Technology Center were without foundation and no
other conditions at the Center requiring corrective action
came to our attention. This report, therefore, is
considered closed upon issuance and no response is
required.

We appreciate the cooperation received from MSHA officials
during the course of this review. If you have any questions
concerning this report, please contact Veronica M. Campbell
at (202) 219-8446, ext. 143.
